No. 19A
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
Kari Janae Phipps,
Applicant,
v.
State of Idaho,
Respondent.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
AMIR H. ALI
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
777 6th Street NW, 11th Floor
Washington, DC 20001
(202) 869-3434
amir.ali@macarthurjustice.org
Counsel for Applicant Kari Janae Phipps
March 6, 2020

No. 19A
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
Kari Janae Phipps,
Applicant,
v.
State of Idaho,
Respondent.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to this Court’s Rules 13.5, 22, and 30.3, Applicant Kari Janae Phipps
requests a 60-day extension of time to file a petition for a writ of certiorari to review
the judgment of the Idaho Supreme Court in this case, to May 18, 2020.
As discussed herein, this case presents an important federal constitutional
question—whether this Court’s decision in Michigan v. Summers, 452 U.S. 692
(1981), authorizes the suspicionless detention of third parties during a parole search.
Applicant requests this extension because she only recently retained undersigned
counsel to assist her pro bono before this Court. Counsel has several court deadlines
during the relevant period and needs additional time to prepare the type of concise,
yet comprehensive petition that would aid this Court in determining whether to grant
certiorari.

1

In support of this request, Applicant states as follows:
1.

The Idaho Supreme Court issued its opinion on December 20, 2019. See

State v. Phipps, 454 P.3d 1084 (Idaho 2019) (attached hereto as Attachment A).
Absent extension, the time for filing a petition would thus expire on March 19, 2020.
Consistent with Rule 13.5, this application has been filed at least 10 days before that
date. This Court has jurisdiction over the case under 28 U.S.C. § 1257(a).
2.

In Michigan v. Summers, 452 U.S. 692 (1981), this Court held that “a

warrant to search for contraband founded on probable cause implicitly carries with it
the limited authority to detain the occupants of the premises while a proper search is
conducted.” Id. at 705 (footnote omitted). In the decision below, the Idaho Supreme
Court held that Summers extends beyond the context of a search warrant, and
authorizes the suspicionless detention of any third parties present during a routine
parole search. The expansion of suspicionless searches from the limited context of
search warrants to parole searches—a routine occurrence for tens of thousands of
people—marks a dramatic expansion of the Summers exception.
3.

As the Idaho Supreme Court acknowledged, its position accords with the

Ninth Circuit. See Phipps, 454 P.3d at 1090 (adopting “the Ninth Circuit Court of
Appeals’ extension of the Summers rule to permit the limited detention of ‘the
occupants of a home during a parole or probation compliance search’”). That position
is in direct conflict with several other courts which have declined to extend Summers
to searches conducted as a condition of release, see State v. Kaul, 891 N.W.2d 352,
357 (N.D. 2017) (“We hold the Summers rule does not apply to a seizure of a non-

2

occupant incident to another individual’s probationary search.”), or have limited
Summers to residents even in the context of searches executed pursuant to a warrant,
see id. at 356 (collecting cases).
4.

Applicant intends to file a petition for certiorari asking this Court to

resolve this constitutional issue. Applicant requests additional time to file the
petition because she only recently retained the assistance of Supreme Court counsel,
Amir H. Ali, to assist her pro bono before this Court. Counsel requires additional time
to undertake the research and analysis that aids this Court in determining whether
to add a case to its merits docket.
5.

During the period of the sought extension, undersigned counsel also has

several substantial briefing deadlines and oral arguments. These include:


A reply in support of certiorari in the U.S. Supreme Court in Rager v.
United States, No. 19-6410, to be filed by March 17, 2020;



A reply in support of certiorari in the U.S. Supreme Court in Shaffer v.
Pennsylvania, No. 19-618, to be filed by March 30, 2020;



A brief in opposition to certiorari in the U.S. Supreme Court in Cole v.
Hunter, No. 19-753, due April 1, 2020; and



A petition for rehearing in the U.S. Court of Appeals for the Second
Circuit in Thompson v. City of New York, No. 19-580, to be filed by April
9, 2020.

6.

Applicant has not previously sought an extension of time from this

7.

For these reasons, Applicant respectfully requests that the time to file a

Court.

petition for a writ of certiorari be extended to and including May 18, 2020.

3

